                                   Report Template Update: 04-03-08




Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICAID MANAGED CARE
     ENCOUNTER DATA:
    COLLECTION AND USE




                    Daniel R. Levinson
                     Inspector General

                       May 2009
                     OEI-07-06-00540
                                                                      Report Template Update: 04-03-08




                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
                                                                                                              Report Template Update: 04-03-08




Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  To determine the extent to which States and the Centers for Medicare
                  & Medicaid Services (CMS) are collecting and using Medicaid managed
                  care encounter data.


                  BACKGROUND
                  From 2000 to 2006, combined Federal and State Medicaid expenditures
                  increased from $207 billion to $322 billion. In response to this growth,
                  States have increasingly used Medicaid managed care to deliver
                  services to beneficiaries. As of 2006, 65 percent of the 45.6 million
                  Medicaid beneficiaries were receiving all or part of their health care
                  services through Medicaid managed care. Encounter data are the
                  primary records of Medicaid services provided to beneficiaries enrolled
                  in capitated Medicaid managed care.

                  The Balanced Budget Act of 1997 requires that Medicaid claims
                  submitted to CMS “on or after January 1, 1999, provide for electronic
                  transmission of claims data in the format specified by the Secretary [of
                  Health and Human Services] and consistent with the MSIS [Medicaid
                  Statistical Information System] (including detailed individual enrollee
                  encounter data and other information that the Secretary may find
                  necessary).” As the only national database of Medicaid claims and
                  beneficiary eligibility information, the MSIS is used by CMS to manage,
                  analyze, and disseminate information on Medicaid beneficiaries,
                  services, and payments. The MSIS data are also widely used for
                  research and policy analysis by both public and private organizations,
                  and may be used for detecting fraud, waste, and abuse. The MSIS must
                  include encounter data to be representative of Medicaid beneficiaries
                  and services.

                  This study is based on (1) a review of the most recent complete MSIS
                  quarterly data submission for each State at the time of our review,
                  (2) 1998 State MSIS Application Forms, and (3) structured interviews
                  with State Medicaid agency staff in the 40 States providing services
                  through capitated Medicaid managed care and with CMS officials.


                  FINDINGS
                  States reported collecting and using encounter data. State Medicaid
                  agency staff in all 40 States with capitated Medicaid managed care


OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                            i
E X E C U T I V E                       S U           M M A R Y


                   reported that they collect encounter data from managed care
                   organizations (MCO). To ensure successful collection, all 40 States have
                   established reporting requirements that dictate the format, frequency,
                   and/or validation expectations for the data. Almost all States have
                   established incentives and/or sanctions to encourage MCOs to report
                   encounter data. Most States are using the encounter data that they
                   collect to manage their Medicaid managed care programs and reported
                   that they would welcome additional guidance and technical assistance
                   from CMS, collaboration with CMS and other States, and information
                   about how other States are using the data.
                   Usefulness of the MSIS is limited because CMS does not enforce
                   encounter data requirements. CMS accepted the most recent MSIS
                   submissions without encounter data from 15 of the 40 States, despite the
                   Balanced Budget Act of 1997 and “State Medicaid Manual” requirements.
                   CMS staff indicated that they have provided all States with the MSIS
                   reporting requirements, which include the requirement to submit
                   encounter data. Reporting practices mostly mirror the 1998 MSIS
                   Application Forms that provided a description of States’ intent with regard
                   to MSIS submissions, including reporting encounter data. CMS has taken
                   no formal action specific to encounter data since that time and has no
                   graduated sanctions or penalties against States that do not fully comply
                   with MSIS reporting requirements. The absence of encounter data from
                   States with Medicaid managed care limits the usefulness of the MSIS.


                   RECOMMENDATIONS
                   We recommend that CMS:
                   Clarify existing Federal requirements that States include encounter
                   data in MSIS submissions. CMS could accomplish this by first issuing
                   comprehensive guidance that emphasizes Federal requirements for
                   including encounter data in the MSIS, issuing national standards for
                   encounter data included in the MSIS, and outlining its expectations
                   regarding MSIS submissions with regard to encounter data
                   (e.g., inclusion, format, frequency, and validation). CMS could also
                   provide States with technical assistance and/or facilitate encounter data
                   discussions among States to ensure that States understand the Federal
                   requirements and submit data that meet quality expectations. Technical
                   assistance may assist States with regard to successful encounter data
                   collection and reporting practices, quality control measures, and ways to
                   overcome any systems limitations.


 OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   ii
E X E C U T I V E                       S U           M M A R Y


                   Enforce existing Federal requirements that States include encounter
                   data in MSIS submissions. Once CMS has provided States with
                   encounter data guidance and technical assistance, it could develop edit
                   checks to ensure the completeness and quality of encounter data.
                   Seek legislative authority to impose sanctions against States that
                   fail to meet the MSIS reporting requirements for encounter data.
                   CMS could seek legislative authority to withhold Federal financial
                   participation for capitated payments and/or levy graduated fines and
                   penalties against States that fail to meet MSIS reporting requirements
                   for encounter data.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our first two recommendations and outlined the
                   actions it would take to clarify and enforce existing Federal encounter
                   data reporting requirements. CMS stated that it did not concur at this
                   time with our third recommendation to seek legislative authority to
                   impose sanctions against States that fail to meet the MSIS reporting
                   requirements for encounter data.

                   CMS stated that it will (1) issue a State Medicaid Director letter to
                   States that use managed care to clarify Medicaid managed care
                   encounter data reporting requirements, (2) inform States that CMS
                   staff will be available to provide technical assistance, (3) utilize State
                   Technical Advisory Groups to collaborate with States on best practices,
                   and (4) establish an Encounter Data Workgroup.

                   CMS also stated it intends to increase efforts to consistently enforce all
                   Federal encounter data reporting requirements and will review current
                   authorities to determine areas where it can strengthen authorities to
                   improve encounter data reporting.

                   CMS did not concur, at this time, with our recommendation to seek
                   legislative authority to impose sanctions against States. CMS stated
                   that it wants to first pursue efforts that address our first two
                   recommendations before considering seeking sanction authority. We
                   agree that CMS should address our first two recommendations as an
                   initial step, but continue to support our third recommendation should
                   CMS efforts not result in States’ reporting encounter data as required.




 OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   iii
E X E C U T I V E              S U       M M A R Y
Δ   T A B L E           O F           C O N T E N T S



          EXECUTIVE SUMMARY .....................................i



          INTRODUCTION ........................................... 1



          FINDINGS ................................................. 7
                    States reported collecting and using encounter data. . . . . . . . . . . . 7

                    Usefulness of the MSIS is limited because CMS does not enforce
                    encounter data requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    Agency Comments and Office of Inspector General Response . . . 14


          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    A: States’ Medicaid Managed Care Enrollment and                                ........
                       Plan Types as of June 30, 2006 . . . . . . . . . . . . . . . . . . . . . . . . 15

                    B: States’ Reporting Requirements for Medicaid Managed Care
                       Encounter Data. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    C: States’ Established Incentives and/or Sanctions for Medicaid
                       Managed Care Encounter Data . . . . . . . . . . . . . . . . . . . . . . . . 19

                    D: States’ Most Common Uses of Medicaid Managed Care
                       Encounter Data. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    E: States’ MSIS Submissions of Medicaid Managed Care
                       Encounter Data. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25



                    Glossary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which States and the Centers for Medicare
                  & Medicaid Services (CMS) are collecting and using Medicaid managed
                  care encounter data.


                  BACKGROUND
                  The Growth of Medicaid Managed Care
                  From 2000 to 2006, Federal Medicaid expenditures increased from
                  $118 billion to $180 billion and State Medicaid expenditures increased
                  from $89 billion to $142 billion. 1 In 2006, Medicaid expenditures
                  accounted for almost one-quarter of all States’ expenditures. 2 In
                  response to the growth in Medicaid expenditures, States have
                  increasingly used Medicaid managed care to deliver services to
                  beneficiaries. 3 From 2000 to 2006, enrollment in Medicaid managed
                  care grew 59 percent, from 18.8 million to 29.8 million beneficiaries.
                  As of 2006, 65 percent of the 45.6 million Medicaid beneficiaries were
                  receiving all or part of their health care services through Medicaid
                  managed care. 4 See Appendix A for States’ Medicaid managed care
                  enrollment and plan types. 5
                  Capitated Medicaid Managed Care
                  States utilize a variety of managed care arrangements to provide
                  Medicaid services to eligible beneficiaries. In the most common
                  arrangement (i.e., capitated Medicaid managed care), State Medicaid
                  programs pay managed care plans a fixed rate per enrolled Medicaid
                  beneficiary in exchange for services included in the plan. States receive
                  Federal financial participation (FFP) for these capitated payments


                    1 Department of Health and Human Services, “Budget in Brief,” 2002, and “Budget in
                  Brief,” 2008. Available online at http://www.hhs.gov/budget/docbudget.htm. Accessed on
                  June 3, 2008.
                      2 National Association of State Budget Officers, “2006 State Expenditure Report,” 2007.
                  Available online at http://www.nasbo.org/publications.php. Accessed on June 3, 2008.
                      3 Managed care is a health care delivery system that aims to maximize efficiency by
                  negotiating rates, coordinating care, and managing use of services.
                      4 At the time of our review, all States had enrolled at least a portion of their Medicaid
                  population in managed care, with the exception of Alaska and Wyoming.
                      5 CMS surveys States annually to collect Medicaid managed care enrollment statistics
                  and program characteristics and publishes that information in the “Medicaid Managed Care
                  Enrollment Report” and the “National Summary of State Medicaid Managed Care
                  Programs.”



OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   1
I N T R O D        U C T            I O N


                    rather than for each individual service, which is how FFP is determined
                    for fee-for-service claims. FFP is the Federal Government’s share of an
                    approved State cost for operating a Medicaid program.

                    Encounter data are detailed information regarding the services provided
                    to Medicaid beneficiaries enrolled in capitated managed care. Like
                    Medicaid claims for services provided on a fee-for-service basis,
                    encounter data are the primary record of services provided to Medicaid
                    beneficiaries enrolled in capitated Medicaid managed care. However,
                    unlike Medicaid fee-for-service claims, States do not receive FFP for
                    encounter data claims. States receive FFP for capitated payments for
                    services provided through Medicaid managed care.
                    Managed care organizations (MCO) that contract with States to provide
                    Medicaid services are required to maintain health information systems.
                    These systems must be able to collect data on Medicaid beneficiaries,
                    provider characteristics, and services using encounter data or other
                    State-specified methods. MCOs are required to ensure that data
                    received from Medicaid providers are accurate and complete. 6
                    The Medicaid Statistical Information System
                    The Medicaid Statistical Information System (MSIS) was created to
                    establish a primary source of Medicaid data at the Federal level for
                    maintaining a single, accurate, and comprehensive Medicaid database
                    that may be used to:

                    •      produce regular statistical reports;

                    •      support research into important policy, quality and effectiveness of
                           care, and epidemiological issues; and

                    •      support detecting fraud, waste, and abuse regarding the Medicaid
                           program. 7
                    The Balanced Budget Act of 1997 amended section 1903(r) of the Social
                    Security Act to require that Medicaid claims submitted to CMS “on or
                    after January 1, 1999, provide for electronic transmission of claims data
                    in the format specified by the Secretary [of Health and Human Services]
                    and consistent with the MSIS (including detailed individual enrollee
                    encounter data and other information that the Secretary may find



                        6 42 CFR § 438.242(b)(2).
                        7 53 Fed. Reg. 26674 (July 14, 1988).




 OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   2
I N T R O D        U C T            I O N


                    necessary).” 8 The MSIS is the only national database of Medicaid
                    claims and beneficiary eligibility information. CMS uses MSIS to
                    manage, analyze, and disseminate information on Medicaid
                    beneficiaries, services, and payments. The MSIS data are also widely
                    used for research and policy analysis by both public and private
                    organizations, and may be used for detecting fraud, waste, and abuse. 9
                    The CMS “State Medicaid Manual” provides guidance and requires that
                    States meet the MSIS systems and data specifications. 10 To implement
                    the MSIS, CMS issued the “MSIS Tape Specification and Data
                    Dictionary” and the “MSIS Participation Guide,” which contain
                    instructions on the files that States are required to report. 11 More
                    specifically, the data dictionary requires that claim files include
                    encounter claims to the extent that they are routinely received by the
                    State. The “MSIS Participation Guide” included an MSIS Application
                    Form that each State was required to complete and submit to CMS by
                    September 30, 1998. The information required in the application
                    generally outlined States’ claims data systems, the fields that they
                    would use, and a description of the types of data that they would
                    provide in their MSIS submissions. Although the applications did not
                    serve as an approval mechanism, they did describe States’ intentions
                    with regard to MSIS submissions, including any exceptions to
                    comprehensive reporting (e.g., the absence of encounter data). 12
                    Medicaid Integrity and Program Management
                    As mandated by the Deficit Reduction Act of 2005, CMS established a
                    Comprehensive Medicaid Integrity Plan (CMIP) to combat Medicaid
                    fraud, waste, and abuse. 13 In the CMIP, CMS notes that it must
                    determine how to calculate return on investment for program integrity
                    strategies aimed at managed care. CMS also notes that it must provide
                    guidance on how to ensure Medicaid integrity in a managed care
                    delivery system and help States develop more sophisticated approaches

                        8 Balanced Budget Act of 1997, P.L. No. 105-33, § 4753(a)(1)
                    (codified at 42 U.S.C. § 1396b(r)).
                        9 “MSIS Overview.” Available online at
                    http://www.cms.hhs.gov/MSIS/01_Overview.asp#TopOfPage. Accessed on June 3, 2008.
                        10 CMS, “State Medicaid Manual” (Pub. No. 45), Chapter 2, § 2700.2(B).
                        11 CMS, “MSIS State Participation Procedures Manual.” Available online at
                    http://www.cms.hhs.gov/MSIS/. Accessed on June 3, 2008.
                        12 CMS, “State Medicaid Manual” (Pub. No. 45), Chapter 2, § 2700.2(D).
                        13 Deficit Reduction Act of 2005, P.L. No 109-171, § 6034(a) (codified at
                    42 U.S.C. § 1396u-6).



 OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   3
I N T R O D        U C T            I O N


                    to addressing fraud and abuse in the managed care environment. 14 As
                    part of CMIP, CMS announced plans to use the MSIS data as a source
                    of Medicaid information to maximize fraud, waste, and abuse detection
                    activities by providing a single, integrated source of timely and quality
                    Medicaid data.
                    Other Studies
                    Thomson Medstat, an organization that contracts with CMS to conduct
                    analyses and provide guidance on a broad range of policy issues,
                    reviewed 2001 and 2002 encounter data from MSIS submissions and
                    indicated that the absence of encounter data prevents CMS, States, and
                    even MCOs from determining Medicaid service utilization by
                    beneficiaries. 15 A 2006 report from the Government Accountability
                    Office found that CMS has not incorporated the MSIS into its oversight
                    of States’ claims or other systems projects intended to improve its
                    analytic capabilities. 16


                    METHODOLOGY
                    Scope
                    This study focused on Medicaid managed care encounter data for
                    services provided in 39 States and the District of Columbia (hereinafter
                    referred to as States) that have capitated Medicaid managed care
                    arrangements. We excluded Alaska and Wyoming because they do not
                    offer Medicaid managed care. We excluded an additional nine States
                    (Arkansas, Idaho, Louisiana, Maine, Mississippi, Montana, New
                    Hampshire, Oklahoma, and South Dakota) that provided Medicaid
                    managed care services only through primary care case management
                    arrangements or prepaid ambulatory health plans because these




                      14 CMS, Center for Medicaid and State Operations, Medicaid Integrity Group,
                    “Comprehensive Medicaid Integrity Plan of the Medicaid Integrity Program,”
                    FY 2007-2011, August 2007. Available online at
                    http://www.cms.hhs.gov/DeficitReductionAct/Downloads/CMIPupdateaugust2007final.pdf.
                    Accessed on June 4, 2008.
                        15 Thomson Medstat, “Cross-State MSIS Encounter Data Quality Feedback Report,”
                    March 28, 2006.
                        16 Government Accountability Office, “Medicaid Financial Management: Steps Taken To
                    Improve Federal Oversight but Other Actions Needed To Sustain Efforts,” GAO-06-705,
                    June 2006.



 OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   4
I N T R O D        U C T            I O N


                    entities are not subject to the same administrative requirements as
                    other capitated managed care plans. 17
                    The mixed methods used to conduct this evaluation included the review
                    and analysis of data in States’ MSIS submissions, States’ MSIS
                    Application Forms, structured interviews with State Medicaid agency
                    staff, and structured interviews with CMS staff. This evaluation did not
                    assess the completeness, accuracy, or timeliness of the encounter data
                    collected by the States and/or reported to CMS in MSIS.
                    Data Collection and Analysis
                    Medicaid Managed Care Encounter Data. We obtained the most recent
                    complete quarterly MSIS data submissions from CMS for the 40 States
                    that provide Medicaid services through capitated Medicaid managed
                    care. 18 The claims data varied by time period based on the most recent
                    complete data submission in the MSIS for each State. We determined
                    the extent to which States included encounter data in their most recent
                    MSIS submissions to CMS by searching for a “3” in the claim type
                    field. 19
                    MSIS Application Forms. We obtained State MSIS Application Forms
                    required by and submitted to CMS in 1998 by each of the 51 States.
                    We limited our review to the 40 States that provided Medicaid services
                    through capitated Medicaid managed care at the time of our review.
                    We reviewed State responses to application questions and compared the
                    information provided in the applications to current MSIS encounter
                    data reporting practices.
                    Interviews with State Medicaid agency staff. We conducted structured
                    telephone interviews with State Medicaid agency staff in all 40 States
                    with capitated managed care to determine why States did or did not
                    include Medicaid managed care encounter data in their most recent
                    MSIS submission. We also determined:



                      17 See 42 CFR § 438.242 (describing health information system requirements that apply
                    only to MCOs and Prepaid Inpatient Health Plans).
                      18 MSIS complete files as of June 1, 2007. There are no edit checks specific to encounter
                    data. To be considered complete, submitted MSIS data files (i.e., eligibility, long-term care,
                    pharmacy, inpatient, and other) must meet CMS’s edit criteria for fee-for-service claims.
                        19 Encounter data are to be reported in the MSIS with a “3” in the claim type field as
                    specified in the “MSIS Tape Specification and Data Dictionary,” updated February 2007.
                    Available online at http://www.cms.hhs.gov/MSIS/Downloads/msisdd05.zip. Accessed on
                    September 8, 2008.



 OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   5
I N T R O D        U C T            I O N


                    •      the extent to which States required or encouraged MCOs to report
                           encounter data to the States,
                    •      any barriers that States experienced in collecting encounter data
                           from MCOs,
                    •      whether nonreporting States anticipated including encounter data
                           in their MSIS submissions to CMS and when,
                    •      the extent to which States use encounter data, and
                    •      how encounter data could be improved to meet States’ needs.

                    Interviews with CMS staff. We conducted structured interviews with
                    CMS staff responsible for implementation and oversight of the MSIS
                    and with CMS’s Office of Research, Development, and Information.
                    Through these interviews, we determined how CMS is using Medicaid
                    managed care encounter data, whether reported data meet its needs,
                    what potential uses exist for the data, and how encounter data could be
                    improved to meet current and future needs.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   6
Δ   F I N D I N G S

         States reported collecting and using            State Medicaid agency staff in
                              encounter data             all 40 States with capitated
                                                         Medicaid managed care reported
                  that they collect encounter data from MCOs. To ensure successful
                  collection, all 40 States have established reporting requirements that
                  dictate the format, frequency, and/or validation expectations for the
                  data. Almost all States have established incentives and/or sanctions to
                  encourage MCOs to report encounter data. Most States are using the
                  encounter data that they collect to manage their Medicaid managed
                  care programs and would welcome additional guidance from CMS and
                  information about how other States are using the data.
                  All 40 States have established reporting requirements for MCOs
                  States’ contractual agreements with MCOs dictate the format,
                  frequency, and/or validation expectations for encounter data. See
                  Table 1 for the number of States that have each type of reporting
                  requirement. See Appendix B for an overview of reporting requirements
                  established by each State for Medicaid managed care encounter data.

                                                 Table 1: Reporting
                                                 Requirements for Medicaid
                                                 Managed Care Encounter Data
                                                                                                    Number of
                                                 Type of Requirement
                                                                                                       States

                                                 Format                                                             40

                                                 Frequency                                                          38

                                                 Validation                                                         33

                                                     Attestation only                                               21

                                                     Edits only                                                      4

                                                     Attestation and edits                                          8

                                                 Source: Office of Inspector General (OIG) analysis
                                                 of interview responses, 2008.



                  Thirty-four States have implemented incentives and/or sanctions regarding
                  MCOs’ reporting of encounter data
                  Thirty-four States have established various incentives and/or sanctions
                  to encourage MCOs to submit encounter data to the States. Incentives
                  may include rewards for plans meeting all encounter data reporting
                  requirements. Sanctions may serve as punitive measures or as
                  deterrents for failure to meet encounter data reporting requirements.
                  States described efforts to encourage MCOs to report encounter data as

OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE        7
F   I N D I N G        S


                      incentives and/or sanctions. For example, a plan could receive full
                      capitated payments for reporting encounter data (described as an
                      incentive by some States) or reduced payments for failing to report
                      encounter data (described as a sanction by some States). See Table 2 for
                      the incentives and/or sanctions that States have established.

                                              Table 2: State-Established Incentives and/or
                                              Sanctions
                                                                                                                        Number of
                                                                                                                           States

                                              Financial inducements and/or penalties                                          26

                                              Rate setting                                                                    13

                                              Automatic enrollment/assignment                                                  7

                                              Performance measures                                                             7

                                              Medicaid Fraud Control Units referral                                            4

                                              Suspension or termination of contract                                            3

                                              Other (nonspecific)                                                              3

                                              Source: OIG analysis of interview responses, 2008.



                      Financial incentives and sanctions described by Medicaid State agency
                      staff include withholding a percentage of the capitated payments for
                      failure to report encounter data, charging managed care plans a daily
                      fee for failure to report encounter data, and basing pay for performance
                      on the receipt and quality of encounter data. Automatic enrollment
                      assignments include enrolling or suspending enrollment of beneficiaries
                      into a managed care plan based on the plan’s submission of encounter
                      data. Performance measures include publishing performance
                      information on State Web sites and publishing report cards based on
                      managed care plan performance. See Appendix C for an overview of
                      incentives and sanctions established by each State.
                      Thirty-nine States use the encounter data that they collect
                      State Medicaid agency staff reported using the encounter data received
                      from MCOs in a variety of ways to meet State-established goals.
                      Thirty-nine of the forty States reported using encounter data to better
                      understand and administer their Medicaid programs. See Table 3 for
                      the most common State uses.




    OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE               8
F   I N D I N G        S



                                         Table 3: States' Most Common Uses for Medicaid
                                         Managed Care Encounter Data

                                                                                                                   Number of States

                                         Quality assurance                                                                      34

                                         Rate setting                                                                           33

                                         Service utilization                                                                    33

                                         Early and Periodic Screening, Diagnosis,
                                                                                                                                29
                                         and Treatment reporting


                                         Program trending                                                                       25

                                         Healthcare Effectiveness Data and
                                                                                                                                23
                                         Information Set measures


                                         Monitoring immunizations                                                               18

                                         Monitoring expenditures                                                                16

                                         Source: OIG analysis of interview responses, 2008.



                      See Appendix D for an overview of each State’s most common uses of
                      Medicaid managed care encounter data.

                      States reported using encounter data for additional purposes, including
                      measuring managed care plan and physician performance, producing ad
                      hoc reports, detecting fraud and abuse, formulating and implementing
                      health care policies, comparing Medicaid managed care and commercial
                      managed care plan performance, gathering beneficiary demographic
                      information, and/or capturing health outcomes (e.g., laboratory results).

                      State Medicaid agency staff in 28 States reported successfully using
                      encounter data. The staff in one State remarked that they “cannot
                      imagine living without encounter data; the data are the lifeblood of the
                      agency.” State Medicaid agency staff in another State reported that
                      “Encounter data are the foundation for our State to achieve its
                      objectives across the board.”
                      In contrast, Medicaid agency staff in 11 States reported difficulty in
                      using encounter data. Staff in six States attributed this difficulty to
                      State system limitations. Staff in four States noted receiving
                      inconsistent and/or flawed data (e.g., problems with particular fields,
                      such as the provider or beneficiary identification) from MCOs.


    OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                 9
 F   I N D I N G        S


                       One State provided no specific reason for its difficulty in using
                       encounter data.
                       Twenty-five States want additional guidance for encounter data
                       State Medicaid agency staff reported a desire to know how other States
                       are using the data and how those uses might transfer to their own
                       programs. They noted that working with other States that are more
                       advanced in collecting, reporting, and using encounter data could
                       improve their understanding and use of the data. Additionally, State
                       Medicaid agency staff in 25 States noted that they would welcome more
                       guidance from CMS (e.g., national standards regarding encounter data),
                       and/or collaboration with CMS and other States. However, State
                       Medicaid agency staff in a few States indicated that any new guidance
                       or requirements should not hinder State flexibility and that reporting
                       encounter data should be optional. See Table 4 for the number of States
                       that want additional guidance and/or collaboration.

                                                      Table 4: Twenty-Five States Want
                                                      Additional Guidance and/or Collaboration
                                                                                                                         Number of
                                                                                                                            States

                                                          Guidance only                                                        12

                                                          Collaboration only                                                    4

                                                          Guidance and collaboration                                            9

                                                      Source: OIG analysis of interview responses, 2008.




Usefulness of the MSIS is limited because CMS                CMS accepted the most recent
                                                             MSIS submissions without
does not enforce encounter data requirements
                                                             encounter data from 15 of the
                       40 States, despite the Balanced Budget Act and “State Medicaid
                       Manual” requirements. CMS staff indicated that they have provided all
                       States with the MSIS reporting requirements, which include the
                       requirement to submit encounter data. Reporting practices mostly
                       mirror the 1998 MSIS Application Forms, and CMS has taken no formal
                       action specific to encounter data since that time. The absence of
                       encounter data from some States with Medicaid managed care limits
                       the usefulness of the MSIS.




     OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE               10
F   I N D I N G        S


                      Not all States submit encounter data as required
                      Fifteen States did not include encounter data in their most recent MSIS
                      submissions at the time of our review (June 1, 2007). State Medicaid
                      agency staff for 11 of these nonreporting States indicated that they were
                      not aware of any requirements to include encounter data in the MSIS.
                      For 9 of the 15 nonreporting States, staff anticipate including the data
                      in future submissions but offered no timeframes for when this reporting
                      might occur. In the remaining six nonreporting States, staff do not
                      anticipate including the data in their MSIS submissions.

                      For the 25 States that did report encounter data in their most recent
                      MSIS submissions, State Medicaid agency staff said that they included
                      the data based on Federal requirements (e.g., “MSIS Operations
                      Manual,” specific waiver requirements, or the direction of CMS) and/or
                      individual State initiatives.
                      CMS does not enforce encounter data reporting requirements and its
                      enforcement options are limited
                      CMS staff indicated that they are not satisfied with the completeness,
                      quality, or usefulness of encounter data submitted by States, yet they
                      accept MSIS submissions that do not include the encounter data, as
                      required. CMS does not enforce the current MSIS reporting
                      requirements or subject encounter data to the same edit checks and/or
                      quality reviews as fee-for-service claims data. CMS staff indicated that
                      unlike fee-for-service claims and capitated payments, encounter data
                      are not linked to FFP, making enforcement difficult. Further, CMS
                      does not have graduated sanctions or penalties against States that do
                      not fully comply with MSIS reporting requirements (e.g., absence of
                      encounter data).
                      States’ 1998 MSIS Application Forms mostly mirror current reporting
                      practices
                      The 1998 MSIS Application Forms for all of the 15 nonreporting States
                      indicated that these States would not include encounter data in their
                      MSIS submissions. Of the 25 reporting States, 23 indicated that they
                      would include encounter data on their 1998 MSIS Application Forms.
                      Two reporting States indicated on their applications that they would not
                      include encounter data in their MSIS submissions, yet they included
                      encounter data in their most recent submissions. See Appendix E for an
                      overview of States’ current encounter data submissions in the MSIS and
                      the 1998 MSIS Application Form responses regarding the inclusion of
                      encounter data in the MSIS.


    OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   11
F   I N D I N G        S


                  The 1998 MSIS Application Forms served as the only formal CMS
                  request for information from States as to how they intended to comply
                  with MSIS reporting requirements, including encounter data. Despite
                  the growth in Medicaid managed care since 1998, CMS has taken no
                  formal action to request updated information from States, issue
                  guidance to States, or develop edit checks for encounter data.
                  The lack of encounter data in MSIS submissions from some States limits its
                  usefulness
                  The absence of encounter data in the MSIS creates an incomplete
                  picture of Medicaid overall and Medicaid managed care specifically,
                  thereby limiting the intended uses of the MSIS. CMS staff responsible
                  for implementation and oversight of the MSIS and staff at CMS’s Office
                  of Research, Development, and Information explained that the absence
                  of encounter data in the MSIS restricts their use of the data. CMS staff
                  would like to progress toward more useful data and explained that
                  without encounter data, the Medicaid managed care picture is
                  incomplete. CMS staff indicated that they “need encounter data to be
                  able to measure what we are paying for.”




OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   12
Δ   R E C O M M E N D A T I O N S

                  All 40 States providing services through capitated Medicaid managed
                  care collect encounter data, and almost all of these States use the data
                  to administer their Medicaid programs. However, CMS accepted MSIS
                  submissions from 15 States that did not include encounter data, thereby
                  failing to enforce the MSIS encounter data reporting requirements for
                  these States. As the only national database of Medicaid claims and
                  beneficiary eligibility information, the MSIS data are widely used for
                  research and policy analysis and may also be used for detecting fraud,
                  waste, and abuse by both public and private organizations. However, to
                  be used as intended, the MSIS must include encounter data to represent
                  the more than 65 percent of the Medicaid population enrolled in
                  Medicaid managed care.

                  To strengthen enforcement of the MSIS requirements, we recommend
                  that CMS:
                  Clarify Existing Federal Requirements That States Include Encounter
                  Data in MSIS Submissions
                  CMS could accomplish this by first issuing (1) comprehensive guidance
                  that emphasizes Federal requirements for including encounter data in
                  the MSIS, (2) national standards for encounter data included in the
                  MSIS, and (3) its expectations regarding MSIS submissions with regard
                  to encounter data (e.g., inclusion, format, frequency, and validation).
                  CMS could also provide States with technical assistance and/or
                  facilitate encounter data discussions among States to ensure that
                  States understand the Federal requirements and submit data that meet
                  quality expectations. Technical assistance may assist States with
                  regard to successful encounter data collection and reporting practices,
                  quality control measures, and ways to overcome any systems
                  limitations.
                  Enforce Existing Federal Requirements That States Include Encounter
                  Data in MSIS Submissions
                  Once CMS has clarified existing Federal requirements that States
                  include encounter data in MSIS submissions, it could develop edit
                  checks to ensure that States comply with those requirements and that
                  the data are complete and meet quality expectations.
                  Seek Legislative Authority To Impose Sanctions Against States That Fail To
                  Meet the MSIS Reporting Requirements for Encounter Data
                  CMS could seek legislative authority to withhold FFP for capitated
                  payments and/or levy graduated fines and penalties against States that
                  fail to meet MSIS reporting requirements for encounter data.

OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   13
R   E C O        M M E N D A T                        I O N               S



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our first two recommendations and outlined the
                      actions it would take to clarify and enforce existing Federal
                      requirements that require States to include encounter data in MSIS
                      submissions. CMS stated that it did not concur at this time with our
                      third recommendation to seek legislative authority to impose sanctions
                      against States that fail to meet the MSIS reporting requirements for
                      encounter data.

                      CMS stated that it will issue a State Medicaid Director letter to all
                      States that use managed care to clarify Medicaid managed care
                      encounter data reporting requirements and inform States that CMS
                      staff will be available to provide technical assistance with encounter
                      data submissions. CMS will utilize State Technical Advisory Groups to
                      collaborate with States on best practices for encounter data submissions
                      and establish an Encounter Data Workgroup to address additional
                      issues.

                      CMS also stated that it intends to increase efforts to consistently
                      enforce all Federal requirements for Medicaid managed care encounter
                      data reporting and will review current authorities to determine areas
                      where it can strengthen authorities to improve managed care encounter
                      data reporting.

                      CMS did not concur, at this time, with our recommendation to seek
                      legislative authority to impose sanctions against States that fail to meet
                      the MSIS reporting requirements for encounter data. CMS stated that
                      it wants to first pursue efforts that address our first two
                      recommendations before considering seeking sanction authority. We
                      agree that CMS should address our first two recommendations as an
                      initial step, but continue to support our third recommendation should
                      CMS efforts not result in States’ reporting encounter data as required.
                      We did not make any changes to the report based on CMS’s written
                      comments. For the full text of CMS’s comments, see Appendix F.




    OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   14
        Δ        A P P E N D I X                                    ~           A



                     State Medicaid Managed Care Enrollment and Plan Types as of June 30, 2006 20

                                                                                    Types of Managed Care Plans
         Percentage of
State   Beneficiaries in     Number of             Number of                                       Number               Number of   Number              Number
                                                                               Number                                                        Number
        Managed Care         Commercial           Medicaid-Only                                      of                   PACE        of                  of
                                                                               of PIHPs                                                      of HIOs
                               MCOs                  MCOs                                          PAHPs                Programs    PCCMs               Others
AK*         0.00%                0                           0                       0                   0                     0      0        0            1

AL          63.30%               0                           0                       2                   0                     0      1        0            0

AR          83.02%               0                           0                       0                   1                     0      1        0            0

AZ          89.60%               0                          25                       1                   0                     0      0        0            0

CA          50.34%               24                          2                       1                  13                     4      0        4            1

CO          95.10%               0                           2                       6                   0                     1      1        0            0

CT          75.59%               2                           2                       0                   0                     0      0        0            0

DC          67.76%               0                           3                       1                   0                     0      0        0            0

DE          76.48%               0                           1                       0                   0                     0      0        0            1

FL          65.49%               13                          1                       3                   5                     1      1        0            2

GA          97.67%               0                           1                       1                   1                     0      1        0            0

HI          79.99%               2                           1                       2                   0                     0      0        0            1

IA          86.51%               1                           0                       1                   0                     0      1        0            0

ID          81.42%               0                           0                       0                   0                     0      1        0            0

IL          7.26%                1                           2                       0                   0                     0      0        0            0

IN          72.09%               0                           5                       0                   0                     0      1        0            0

KS          57.03%               0                           1                       0                   0                     1      1        0            0

KY          92.37%               0                           1                       0                   1                     0      1        0            0

LA          71.15%               0                           0                       0                   0                     0      1        0            0

MA          60.43%               2                           2                       1                   0                     6      1        0            0

MD          69.96%               0                           7                       0                   0                     1      0        0            0

ME          66.70%               0                           0                       0                   0                     0      1        0            0

MI          84.85%               4                          11                      18                   0                     1      0        0            0

MN          63.65%               6                           3                       0                   0                     0      0        0            0

MO          99.53%               3                           4                       0                   1                     1      0        0            0

MS          10.21%               0                           0                       0                   1                     0      0        0            0




                                      20 See Glossary on page 28 for terms and abbreviations used in Appendix A.




           OEI-07-06-00540        M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                      15
A     P     P E N D            I X         ~            A


                   State Medicaid Managed Care Enrollment and Plan Types as of June 30, 2006
                   (Continued)

                                                                                                 Types of Managed Care Plans
               Percentage of
              Beneficiaries in       Number of                  Number of                                       Number               Number of   Number              Number
    State                                                                                   Number                                                        Number
              Managed Care           Commercial                Medicaid-Only                                      of                   PACE        of                  of
                                                                                            of PIHPs                                                      of HIOs
                                       MCOs                       MCOs                                          PAHPs                Programs    PCCMs               Others
    MT             66.86%                   0                            0                        0                   0                     0      1        0            0

    NC             64.90%                   1                            0                        2                   0                     0      2        0            0

    ND             55.62%                   0                            1                        0                   0                     0      1        0            0

    NE             80.85%                   1                            0                        0                   0                     0      1        0            1

    NH             74.87%                   0                            0                        0                   1                     0      0        0            0

    NJ             69.41%                   2                            3                        0                   0                     0      0        0            0

    NM             65.19%                   2                            1                        1                   0                     1      0        0            0

    NV             82.39%                   2                            0                        0                   1                     0      0        0            0

    NY             61.12%                  20                           19                       12                   1                     4      4        0            1

    OH             39.91%                   0                            8                        0                   0                     2      0        0            0

    OK             85.90%                   0                            0                        0                   2                     0      1        0            0

    OR             90.34%                   2                           11                        9                   8                     1      1        0            1

    PA             86.32%                  11                            0                       28                   1                     4      1        0            0

    RI             65.84%                   2                            1                        0                   0                     1      0        0            0

    SC             20.19%                   0                            2                        0                   2                     1      1        0            0

    SD             98.25%                   0                            0                        0                   1                     0      1        0            0

    TN            100.00%                   4                            4                        2                   0                     1      0        0            2

    TX             68.55%                   8                            2                        1                   0                     2      2        0            0

    UT             86.89%                   0                            0                       12                   1                     0      1        0            0

    VA             63.22%                   5                            2                        0                   1                     0      1        0            0

    VT             64.70%                   0                            1                        0                   0                     0      0        0            0

    WA             86.64%                   7                            1                        1                   1                     1      1        0            0

    WI             46.73%                  34                            3                        2                   0                     1      0        0            0

    WV             46.31%                   3                            0                        0                   0                     0      1        0            0

    WY             0.00%                    0                            0                        0                   0                     0      0        0            0

    Total          65.34%                 162                          133                      107                  43                    35      33       4            11
    Source: CMS, “2006 Medicaid Managed Care Enrollment Report.”
    *Alaska offers nonemergency medical transportation through a managed care waiver authority but uses a fee-for-service transportation broker.




                  OEI-07-06-00540              M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                      16
A   P   P E N D        I X            ~          A
Δ       A P P E N D I X                               ~            B

        States’ Reporting Requirements for Medicaid Managed Care Encounter Data 21

        States With                                              Reporting Requirements
        Capitated
        Medicaid                                                                                                         Data Must Pass
        Managed Care    Format                     Frequency                   CEO/CFO Attestation
                                                                                                                          Edit Checks

        AL                   X                            X                                                                    X

        AZ                   X                            X                                    X                               X

        CA                   X                            X                                                                    X

        CO                   X                            X                                    X

        CT                   X                            X                                    X                               X

        DC                   X                            X                                    X

        DE                   X                            X

        FL                   X                            X                                    X                               X

        GA                   X                            X                                    X

        HI                   X                            X                                                                    X

        IA                   X                            X                                    X

        IL                   X                            X                                    X

        IN                   X

        KS                   X                            X                                    X

        KY                   X                            X                                    X

        MA                   X                            X                                    X

        MD                   X                            X                                    X                               X

        MI                   X                            X                                    X                               X

        MN                   X                            X                                    X

        MO                   X                            X                                    X                               X




                           21 See Glossary on page 28 for terms and abbreviations used in Appendix B.




    OEI-07-06-00540    M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                    17
A   P    P E N D            I X             ~          B


        States’ Reporting Requirements for Medicaid Managed Care Encounter Data
        (Continued)

        States With                                                    Reporting Requirements
        Capitated
        Medicaid                                                                                                               Data Must Pass
        Managed Care           Format                    Frequency                   CEO/CFO Attestation
                                                                                                                                Edit Checks

        NC                         X

        ND                         X                             X

        NE                         X                             X

        NJ                         X                             X                                   X

        NM                         X                             X                                   X

        NV                         X                             X                                   X

        NY                         X                             X                                   X

        OH                         X                             X                                   X

        OR                         X                             X                                   X                               X

        PA                         X                             X                                   X

        RI                         X                             X

        SC                         X                             X                                   X

        TN                         X                             X                                   X                               X

        TX                         X                             X                                   X

        UT                         X                             X                                   X

        VA                         X                             X                                   X

        VT                         X                             X                                                                   X

        WA                         X                             X                                   X

        WI                         X                             X

        WV                         X                             X                                   X

             Total                40                            38                                   29                             12

        Source: Office of Inspector General analysis of interview responses, 2008.
        A blank field indicates that the State did not have the requirement or did not specifically indicate it in the
        interview.




    OEI-07-06-00540          M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                    18
     Δ      A P P E N D I X                                ~            C

            States’ Established Incentives and/or Sanctions for Medicaid Managed Care
            Encounter Data 22

States
                                                             Incentives and/or Sanctions
With
Capitated
Medicaid       Financial                                                                                                      Suspension
                                            Automatic
Managed      Inducements    Rate                                     Performance                      MFCU                        or          Other
                                           Enrollment/
Care            and/or     Setting                                    Measures                       Referral                 Termination   Nonspecific
                                           Assignment
               Penalties                                                                                                      of Contract
AL

AZ                X           X                     X                          X

CA                                                                                                                                X

CO

CT                X           X

DC                X

DE

FL

GA                X

HI*                                                                                                                                             X

IA                            X                                                                           X

IL                X

IN                            X

KS                X

KY                X

MA                X                                 X                          X

MD                X           X                                                X

MI                X           X                     X                          X

MN                X           X

MO                X                                                                                       X




                                22 See Glossary on page 28 for terms and abbreviations used in Appendix C.




       OEI-07-06-00540      M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                               19
      A      P   P E N D         I X              ~            C


                 States’ Established Incentives and/or Sanctions for Medicaid Managed Care
                 Encounter Data (Continued)


States
                                                                    Incentives and/or Sanctions
With
Capitated           Financial                                                                                                        Suspension
Medicaid                                           Automatic
                  Inducements     Rate                                      Performance                      MFCU                        or          Other
Managed                                           Enrollment/
                     and/or      Setting                                     Measures                       Referral                 Termination   Nonspecific
Care                                              Assignment
                    Penalties                                                                                                        of Contract
NC

ND                                                                                                                                                     X

NE*                                                                                                                                                    X

NJ                      X                                                             X

NM                      X

NV                                   X

NY                      X            X

OH                      X                                  X                                                     X                       X

OR                      X                                  X

PA                      X            X

RI                      X            X                     X                          X

SC                      X

TN                      X

TX                      X            X                                                X

UT                      X

VA

VT                                   X                                                                           X                       X

WA                      X

WI                      X

WV                      X                                  X

     Total             26           13                     7                          7                          4                       3             3
Source: Office of Inspector General analysis of interview responses, 2008.
A blank field indicates that the State did not have the incentive and/or sanction or did not specifically indicate it in the
interview.
*State has incentives and/or sanctions outlined in contractual agreement but does not currently implement them.




             OEI-07-06-00540       M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                               20
       Δ          A P P E N D I X                                  ~            D

                       States’ Most Common Uses of Medicaid Managed Care Encounter Data 23

States With                                                                   Uses of Encounter Data
Capitated
Medicaid
                                                                                                                                                       Monitoring
Managed          Rate       Quality             Service                 EPSDT                  Program                HEDIS             Monitoring
                                                                                                                                                        Program
Care            Setting    Assurance           Utilization             Reporting               Trending              Measures         Immunizations
                                                                                                                                                      Expenditures

AL                 X            X                     X                                              X

AZ*                X            X                     X                                              X

CA                 X            X                     X                       X                      X                      X              X

CO                 X            X                     X                                              X                      X                              X

CT                 X                                  X                       X                                             X                              X

DC*                X            X                     X                                              X                      X                              X

DE                 X            X                     X                       X                      X                      X

FL                 X            X                     X                                                                                                    X

GA                 X            X                     X                       X                      X                      X              X               X

HI                 X                                                                                                        X

IA                 X            X                     X                       X                                             X              X

IL                              X                     X                       X                      X                      X              X

IN                              X                     X                       X                      X                      X              X               X

KS                              X                     X                       X                                                            X               X

KY                 X            X                     X                       X                      X                                     X               X

MA                 X            X                     X                       X                      X                      X

MD                 X            X                     X                       X                      X                                     X               X

MI                 X            X                     X                       X                      X                                     X               X

MN                 X            X                     X                       X                      X                      X              X

MO                              X                                             X                                             X




                                        23 See Glossary on page 28 for terms and abbreviations used in Appendix D.




              OEI-07-06-00540       M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                        21
              A   P    P E N D            I X              ~          D


                        States’ Most Common Uses of Medicaid Managed Care Encounter Data (Continued)

States With                                                                           Uses of Encounter Data
Capitated
Medicaid
                                                                                                                                                               Monitoring
Managed                Rate      Quality                Service                 EPSDT                   Program                HEDIS            Monitoring
                                                                                                                                                                Program
Care                  Setting   Assurance              Utilization             Reporting                Trending              Measures        Immunizations
                                                                                                                                                              Expenditures

NC                      X

ND                      X

NE                                                                                    X

NJ                      X            X                         X                      X                       X                     X              X

NM                      X            X                         X                      X                       X                                    X               X

NV                      X            X                         X                      X                       X                     X              X               X

NY                      X            X                                                                        X                     X

OH                      X            X                         X                      X                       X                     X              X

OR*                     X            X                         X                      X                       X                                    X               X

PA                      X            X                         X                                                                    X

RI                      X            X                         X                      X                       X                     X                              X

SC

TN                      X            X                         X                      X                                             X              X

TX*                     X            X                         X                      X                       X                     X                              X

UT*                     X            X                         X                      X                       X

VA*                                  X                         X                      X                                             X              X

VT                      X            X                         X                      X                                             X

WA*                     X            X                         X                      X

WI*                     X            X                         X                      X                       X                                    X               X

WV                      X            X                         X                      X                       X

      Total             33           34                        33                    29                      25                     23             18             16

Source: Office of Inspector General analysis of interview responses, 2008.
*State also uses encounter data for establishing DME payments and/or determining DSH payments.
A blank field indicates “not applicable.”




                  OEI-07-06-00540           M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                       22
         Δ        A P P E N D I X                                    ~           E

                        States’ MSIS Submissions of Medicaid Managed Care Encounter Data 24

              Most Recent                                                                                    MSIS Files Containing Encounter Data
                                                        Application
States With       MSIS            Encounter
                                                      Indicates State
Capitated       Quarterly       Data Included
                                                        Will Include
Medicaid       Submission          in Most
                                                        Encounter
Managed       Month/Year at     Recent MSIS                                                                                                   Long-Term
                                                        Data in the                  Inpatient                 Other               Pharmacy               Eligibility
Care           the Time of       Submission                                                                                                     Care
                                                           MSIS
               Our Review

AL               04/2005             X                           X                         X                                                                   X

AZ               02/2007             X                           X                         X                       X                   X         X             X

CA               01/2007             X                           X                         X                       X                   X         X

CO               01/2006

CT               04/2006

DC               02/2007

DE               01/2007

FL               02/2007

GA               01/2007             X                           X                                                 X                                           X

HI               02/2007             X                           X                         X                       X                   X         X             X

IA               03/2006             X                           X                         X                       X

IL               01/2007             X                           X                         X                       X

IN               02/2007             X                           X                         X                       X                   X

KS               02/2006             X                           X                         X                       X                   X

KY               04/2006             X                           X                         X                       X                   X                       X

MA               04/2004

MD               01/2005             X                           X                         X                       X                   X

MI               04/2005

MN               04/2006             X                           X                         X                       X                   X         X

MO               02/2007             X                           X                         X                       X                   X




                                         24 See Glossary on page 28 for terms and abbreviations used in Appendix E.




              OEI-07-06-00540        M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                      23
              A P P E N D              I X             ~          E


                       States’ MSIS Submissions of Medicaid Managed Care Encounter Data (Continued)

                   The Most                                                                                     MSIS Files Containing Encounter Data
                                                             Application
States With      Recent MSIS        Encounter
                                                           Indicates State
Capitated          Quarterly      Data Included
                                                             Will Include
Medicaid          Submission         in Most
                                                             Encounter
Managed          Month/Year at    Recent MSIS                                                                                                    Long-Term
                                                             Data in the                Inpatient                 Other               Pharmacy               Eligibility
Care              the Time of      Submission                                                                                                      Care
                                                                MSIS
                  Our Review

NC                  04/2006              X                          X                         X                                                                   X

ND                  01/2005              X                          X                         X                       X

NE                  01/2007              X                          X                         X                       X

NJ                  04/2005              X                          X                                                 X                   X

NM                  01/2007              X                          X                         X                       X                             X

NV                  04/2005              X                          X                         X                       X                             X

NY                  02/2007              X                          X                         X                       X                   X         X

OH                  04/2005

OR                  01/2006              X                          X                         X                       X

PA                  02/2005

RI                  03/2005              X                          X                         X                       X                   X

SC                  02/2007

TN                  04/2006

TX                  04/2006

UT                  04/2005

VA                  04/2006              X                          X                         X                       X                   X         X             X

VT                  04/2005

WA                  02/2007              X                                                    X                                           X         X

WI                  01/2007              X                                                    X                      X                    X         X

WV                  03/2006

     Total                              25                          23                        23                     22                   15        10            7
Source: Office of Inspector General analysis of the most recent and complete quarter of the State MSIS data submitted to the Centers for
Medicare & Medicaid Services, 2008.
A blank field indicates “not applicable.”




                OEI-07-06-00540         M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                      24
Δ                A P P E N D I X                                       ~           F

                                       Agency Comments

 #,~f,f."'lt"l.'t.4\t




\.         ~             DEPARTME          O'HEA :rII&HUMANSERVlCES                                                                Centers for Medicare & Medicaid Services

  ~S~                                                                                                                              200 Independence Avenue SW
                                                                                                                                   Washinglon, DC 20201




                        DATE:              APR 1 '! 2009                                                                                            "'->
                                                                                                                                                    =
                                                                                                                                                    =
                        TO:            Daniel R. Levinson                                                                                           ,,'"
                                                                                                                                                    ::a    .• J
                                                                                                                                           Cl       "1:1   ~.,

                                       Inspector General                                                                                   r,.·     :;u
                                                                                                                                                            ')
                                  C~\.~~-'j~t.v-                                                                                           :l:
                                                                                                                                           '"
                                                                                                                                          ;,;,
                                                                                                                                                   en        1
                        FRO            Charlcne Frizzera                                                                                  t>.
                                       Acting Administrator                                                                               r-       "
                                                                                                                                                   ~

                                                                                                                                       i9
                        SUBJECT:       Office of Inspector General (OIG) Draft Rcport:                               "Medicaid Managed a;
                                       Care Encounter Data: Collection and Use' (OEJ-07-06-00540)

                        Thank you for the opportunity to review and comment on the ubject OlG Draft Report.
                        The purpose of this report was to determine the extent to which States and the Centers for
                        Medicare & Medicaid Services (CMS) are collecting and using Medicaid managed care
                        encounter data.

                        As of2006, 65 percent of tbe 45.6 million Medicaid beneficiaries werc receiving all or
                        part of their health care ervices through a Medicaid managed care program. Encounter
                        data are the primary records of Medicaid services provided to beneficiaries enrolled in
                        capitated managed care. Unlike claims data fTom fee-for-service providers, which is
                        reported directly from the States to CMS, encounter data concerning managed care
                        enrollees flows from the provider to the provider's group practice or other entity, to the
                        managed care organization to the State, and then finally from the State to CMS.

                        Section 4753(a)(I) of the Balanced Budget Act of 1997 (BBA), P.L. 105-33, amended
                        section 1903(r) of the Social Security Act (the Act) to require, 'effective for claims liled
                        on or after January I, 1999," that tates "provide for electronic transmission of claims
                        data in the format specified by the Secretary of Health and Human ervices and
                        consistent with the Medicaid Statistical Inforntation System (MSIS) including detailed
                        individual enrollee encounter data and other information that the ccrctary may find
                        necessary.' While the tenn "encounter data" is most commonly used to refer to managcd
                        care settings in which an individual claim for payment may not be submitted, neither
                        section 4753(a)( 1), nor any other provisions of the BBA, amendcd the statutory
                        provisions governing Medicaid managed care contract to reference this ncw
                        requirement. Moreover, the referencing of encounter data modifies a reference to
                        "transmission of claims data' suggesting that "claims data" is to include encounter data.

                          onethe1ess, ofthe 40 States providing Medicaid services through capitatcd managed
                        care programs all 40 collect some encounter data from the managed care organiZe"ltions
                        and usc it to manage their Medicaid managed care programs. We note M IS data are
                        lIsed by CMS and other public and private organizations for research and policy analysis.




       OEI-07-06-00540                 M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE                                        25
A   P   P E N D        I X         ~           F




                Page 2 - Danicl R. Levinson


                CMS accepted the most recent MSIS submissions from 15 of the 40 Statcs with managed
               .care programs without encounter data being included. The absence of these encounter
                data from States with Medicaid managed care programs limits the usefulness of the
                MSIS.

                After reviewing this report, CMS has the following comments in response to the report's
                recommendations:

                OIG Recommendation

                Clarify existing Fedcral requirements lhat States include encounter data in MSIS
                submissions.

                eMS Response

               The CMS concurs with this recommendation and intends to do the following: (I) issue a
               State Medicaid Director leiter to all Statcs that use managed care entities to provide
               services to their Medicaid beneficiaries that clarifies CMS' interpretation of section
               1903(r) ofthc Act as requiring that managed care encounter data be submitted as part of
               MSIS claims data submissions, and indicrlte that central office and regional officc staff
               will be available to provide tcchnical assistancc to assist the States in submitting such
               data; (2) utilize the various State Tcehnical Advisory Groups (rAGs) to bring togcther
               appropriate State and CMS staff to collaborate on the best practices that States employ to
               collect, use, and submit encounter data and to detennine what other types of technical
               guidance or clarifications arc nceded by the Statcs and managed care entities; and (3)
               establish an Encounter Data Workgroup comprised of Central Office staff, Regional
               Office staff, and staff from States who arc most closely involved in submitting encounter
               data to address issues related to the requirements for thc ongoing submission, accuracy,
               completeness and uses of encounter data.

                OIG Recommendation

                Enforce existing Federal requirements that States include encountcr data in MSIS
                submissions.

                eMS Response

               The CMS concurs that efforts should be made to ensure that States' submit managed care
               encounter data to CMS and intends to increase our efforts to consistcntly cnforee all
               current statutory, regulatory, and policy guidelines in this area. These enforcement
               efforts would include reminding Statcs of their obligations as part of the State single-
               audit process, eMS oversight reviews, and through ongoing diseussions with the State
               officials, State staff, and managcd care entities during mectings, conferences, and other
               forums that take place on an ongoing basis. Additionally, we are going to review our
               current managed eare and MSIS data statutory and regulatory authorities to detcnnine




         OEI-07-06-00540        M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   26
A   P   P E N D          I X              ~          F



         Agency Comments
             Page 3 - Daniel R. Levinson


             what changes may be lleeded and where we can strengthen current authorities to improve
             the collection, submission, use, of managed care encountcr data

             DIG Recommendation

             Scck legislative authority to impose sanctions against Slatcs thai fail to meet the MSIS
             reporting requirements for encounter data.

             eMS Response

             We do not concur with this recommendation at this time. Rather than pursuing
             lcgislative authority to impose sanctions we want to begin to more actively pursue thc
             specific items we have outlined above to work with the States and managed care
             organizations collaboratively to improve the collection, submission, and use of managed
             care encounter dala. We believe thai by clarifying the existing requirements, Sharing best
             practices, working together with the States and our managed care partners, and using our
             current authorities to improve this process needs to be done before considcring an option
             to get sanction authority.

             "bc eMS thanks the 010 for the opportunity to review and comment on this draft report.




    OEI-07-06-00540        M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   27
 Δ        G L O S S A R Y



Centers for Medicare & Medicaid Services                          The Federal agency responsible for
(CMS)                                                             administering Medicare, Medicaid, the State
                                                                  Children’s Health Insurance Program, Health
                                                                  Insurance Portability and Accountability Act,
                                                                  Clinical Laboratory Improvement Amendments,
                                                                  and several other health-related programs. CMS
                                                                  was formerly known as the Health Care
                                                                  Financing Administration (HCFA).

Chief Executive Officer (CEO)                                     In an organization that has a board of directors,
                                                                  the CEO is (usually) the singular organizational
                                                                  position that is primarily responsible for carrying
                                                                  out the strategic plans and policies as established
                                                                  by the board of directors. In this case, the CEO
                                                                  reports to the board of directors. In a form of
                                                                  business that is usually without a board of
                                                                  directors (sole proprietorship, partnership, etc.),
                                                                  the CEO is (usually) the singular organizational
                                                                  position (other than partnerships, etc.) that sets
                                                                  the direction and oversees the operations of an
                                                                  organization.

Chief Financial Officer (CFO)                                     CFOs direct the organization’s financial goals,
                                                                  objectives, and budgets. They oversee the
                                                                  investment of funds and manage associated risks,
                                                                  supervise cash management activities, execute
                                                                  capital-raising strategies to support a firm’s
                                                                  expansion, and deal with mergers and
                                                                  acquisitions.

Disproportionate Share Hospital (DSH)                             A hospital with a disproportionately large share
                                                                  of low-income patients. Under Medicaid, States
                                                                  may augment payment to these hospitals.

Durable Medical Equipment (DME)                                   Medical equipment ordered by a doctor or other
                                                                  authorized medical professional for use in the
                                                                  home. DME includes reusable items, such as
                                                                  walkers, wheelchairs, and hospital beds.

Early and Periodic Screening, Diagnosis,                          The child health component of the Medicaid
and Treatment (EPSDT) Program                                     program. It is required in every State and is
                                                                  designed to improve the health of low-income
                                                                  individuals under age 21 by financing
                                                                  appropriate and necessary pediatric services.




      OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   28
   G L O S S A R Y


Healthcare Effectiveness Data                                     A set of standard performance indicators used
and Information Set (HEDIS)                                       to compare the quality of care, access, and cost of
                                                                  health care services provided through managed
                                                                  care plans.

Health Insuring Organization (HIO)                                An entity that provides or arranges for the
                                                                  provision of care and that contracts on a prepaid
                                                                  capitated risk basis to provide a comprehensive
                                                                  set of services.

Managed Care Organization (MCO)                                   An entity that serves beneficiaries on a risk basis
                                                                  through a network of employed or affiliated
                                                                  providers.

Medicaid Fraud Control Unit                                       The mission of MFCUs is to investigate and
(MFCU)                                                            prosecute Medicaid provider fraud and incidences
                                                                  of patient abuse and neglect. Currently, 49
                                                                  States and the District of Columbia have MFCUs,
                                                                  most of which are located within the Offices of
                                                                  State Attorneys General.

Medicaid Statistical Information System                           The electronic system through which States
(MSIS)                                                            submit all of their Medicaid eligibility and claims
                                                                  data to CMS on a quarterly basis. The purpose of
                                                                  MSIS is to collect, manage, analyze, and
                                                                  disseminate information on Medicaid-eligible
                                                                  beneficiaries, Medicaid utilization, and payments
                                                                  for services covered by State Medicaid programs.

Prepaid Ambulatory Health Plan (PAHP)                             An entity that provides ambulatory medical
                                                                  services to beneficiaries under contract with the
                                                                  State agency on the basis of prepaid capitation
                                                                  payments or other payment arrangements that
                                                                  do not use State plan payment rates. The entity
                                                                  does not provide, arrange for, or otherwise have
                                                                  responsibility for the provision of any inpatient
                                                                  hospital or institutional services for its
                                                                  beneficiaries.




      OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   29
   G L O S S A R Y


Prepaid Inpatient Health Plan (PIHP)                              An entity that provides, arranges for, or
                                                                  otherwise has responsibility for the provision of
                                                                  inpatient medical services to beneficiaries under
                                                                  contract with the State agency on the basis of
                                                                  prepaid capitation payments or other payment
                                                                  arrangements that do not use State plan
                                                                  payment rates.

Primary Care Case Management (PCCM)                               An entity or a provider that contracts with the
                                                                  State to furnish case management services
                                                                  (e.g., locating, coordinating, and monitoring
                                                                  covered primary care services) to Medicaid
                                                                  beneficiaries.

Program of All-inclusive Care for                                 A comprehensive program that combines medical,
the Elderly (PACE)                                                social, and long term care services that enable
                                                                  elderly beneficiaries to remain independent and
                                                                  live in their communities.




      OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   30
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Deborah Walden served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Kansas City regional office who contributed to the report include
                  Michael Barrett, Megan Buck, Lt. Mike Garner, and Amber Meurs;
                  other central office staff who contributed include Jennifer Jones and
                  Kevin Manley.




OEI-07-06-00540   M E D I C A I D M A N A G E D C A R E E N C O U N T E R D ATA : C O L L E C T I O N   AND   USE   31
